                      CLOSEOUT FOR 2493040026




by the subjects' own equipment, was in fact taken from a preprint
of an article by other scientists. The complainant also raised
questions about whether the subjects had misrepresented their
research.equipment in the proposal, noting that the manufacturer
from whom the subjects allegedly obtained the equipment did not
have such a system ready for sale.
     When contacted, Subject #1 explained that the photograph did
indeed come from the article by the other scientists and was not
made on the subjects' own equipment.         He told us that he
I1inadvertentlyused that photograph instead of one of my own in the
haste of finishing the proposal in time for the submission
deadline." The subject pointed out that his system is modelled on
the one that actually made the photograph (a point that is explicit
in the proposal) and that he distributes photostat copies of the
article and of individual figures and photographs made on that
system to students and colleagues "as a discussion item and as a
system to emulate."     The photograph in question was used to
illustrate the capacities of the subject's system, and its specific
content was not germane to the proposal or to an accurate
assessment of its merit. OIG wrote to the subject requesting that,
to correct the record, he send a photograph illustrating the
capacities of his system that had in fact been produced on that
system before he submitted his proposal. OIG further requested
that the subject obtain a certification from another member of his
research group confirming that the photograph had been available
when the proposal was submitted. OIG also expressed concern about
the record keeping and citation practices that made this mistake
possible and asked the subject to devise practical and effective
changes that will prevent future occurrences of this kind.
     Subject #1 sent an appropriate photograph to us along with the
certification we requested. We asked him to send a copy of the
photograph to the program to correct his proposal, and he has
complied with this request. He also sent us an explanation of the
changes he has introduced in his laboratory procedures. He now
requires that photostat copies of figures or photographs contain
the original captions and that the source of the original document
be clearly written on the copy.

                            page 1 of 3
     Subject #1 provided us with extensive documentation
substantiating the claim that he has access to the equipment
described in his proposal. He sent us bids for the system and
copies of the accompanying technical specifications, which match
those described in his proposal. He also sent an abstract of a
paper that reports data from the system and is co-authored by a
scientist who works for the manufacturer from whom the subjects
allegedly obtained the equipment. In addition, the subject sent us
computer printouts of data produced by his system. The subject's
account is fully consistent with the information we received from
the complainant, who indicated only that no system was yet
available for sale from the manufacturer. The subject's system was
designed specifically for him following the model discussed in his
proposal, and the copies of bids from the manufacturer's U.S.
representative indicate that the system would not have been
generally available for sale. We no longer have any reason to
question the subject's claim that he had access to the equipment in
question or to believe that this equipment was misrepresented in
his proposal.
     This case is closed and no further action willbe taken.




Staff Scientist, Oversight

Concurrence:




Donald E. Buzzelli
Deputy Assistant Inspector General,
Oversight



                         ~ l l t / ~ ~

Assistant Inspector General for Oversight




                             page 2 of 3
L. Nancy Birnbaum
Assistant Counsel to the Inspector General


cc: Signatories
    Inspector General




                           page 3 of 3
